<html>
<title> - [H.A.S.C. No. 115-24]High Consequences and Uncertain Threats: Reviewing Department of Defense Strategy, Policy, and Programs for Countering Weapons of Mass Destruction for Fiscal Year 2018</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                         [H.A.S.C. No. 115-24]
 
                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2018

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

       SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES HEARING

                                   ON

                HIGH CONSEQUENCES AND UNCERTAIN THREATS:

                    REVIEWING DEPARTMENT OF DEFENSE

                   STRATEGY, POLICY, AND PROGRAMS FOR

      COUNTERING WEAPONS OF MASS DESTRUCTION FOR FISCAL YEAR 2018

                               __________

                              HEARING HELD
                             MARCH 23, 2017

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-090                      WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1c7b6c735c7f696f687479706c327f737132">[email&#160;protected]</a>   


           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                ELISE M. STEFANIK, New York, Chairwoman

BILL SHUSTER, Pennsylvania           JAMES R. LANGEVIN, Rhode Island
BRAD R. WENSTRUP, Ohio               RICK LARSEN, Washington
RALPH LEE ABRAHAM, Louisiana         JIM COOPER, Tennessee
LIZ CHENEY, Wyoming, Vice Chair      JACKIE SPEIER, California
JOE WILSON, South Carolina           MARC A. VEASEY, Texas
FRANK A. LoBIONDO, New Jersey        TULSI GABBARD, Hawaii
TRENT FRANKS, Arizona                BETO O'ROURKE, Texas
DOUG LAMBORN, Colorado               STEPHANIE N. MURPHY, Florida
AUSTIN SCOTT, Georgia
                Katie Sutton, Professional Staff Member
              Lindsay Kavanaugh, Professional Staff Member
                          Neve Schadler, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Ranking Member, Subcommittee on Emerging Threats and 
  Capabilities...................................................     2
Stefanik, Hon. Elise M., a Representative from New York, 
  Chairwoman, Subcommittee on Emerging Threats and Capabilities..     1

                               WITNESSES

Durand, Shari, Acting Director, Defense Threat Reduction Agency, 
  U.S. Department of Defense.....................................     6
Hopkins, Dr. Arthur T., Acting Assistant Secretary for Nuclear, 
  Chemical, and Biological Defense Programs, U.S. Department of 
  Defense........................................................     3
Verga, Peter, Performing the Duties of Assistant Secretary of 
  Defense for Homeland Defense and Global Security, U.S. 
  Department of Defense..........................................     5

                                APPENDIX

Prepared Statements:

    Durand, Shari................................................    48
    Hopkins, Dr. Arthur T........................................    31
    Stefanik, Hon. Elise M.......................................    29
    Verga, Peter.................................................    38

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Ms. Gabbard..................................................    70
    Mr. Scott....................................................    70
    Ms. Stefanik.................................................    69
    Mr. Wilson...................................................    69

Questions Submitted by Members Post Hearing:

    Mr. Franks...................................................    77
    Mr. Langevin.................................................    75
    Mr. Shuster..................................................    76
    Ms. Stefanik.................................................    75
                
                
               
                HIGH CONSEQUENCES AND UNCERTAIN THREATS:

               REVIEWING DEPARTMENT OF DEFENSE STRATEGY,

  POLICY, AND PROGRAMS FOR COUNTERING WEAPONS OF MASS DESTRUCTION FOR 
                            FISCAL YEAR 2018

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
         Subcommittee on Emerging Threats and Capabilities,
                          Washington, DC, Thursday, March 23, 2017.
    The subcommittee met, pursuant to call, at 10:30 a.m., in 
room 2118, Rayburn House Office Building, Hon. Elise M. 
Stefanik (chairwoman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ELISE M. STEFANIK, A REPRESENTATIVE 
FROM NEW YORK, CHAIRWOMAN, SUBCOMMITTEE ON EMERGING THREATS AND 
                          CAPABILITIES

    Ms. Stefanik. The Emerging Threats and Capabilities 
Subcommittee of the House Armed Services Committee [HASC] will 
come to order.
    I would like to welcome everyone here today for this very 
timely hearing on the Department of Defense [DOD] countering 
weapons of mass destruction [CWMD] policy and programs for 
fiscal year 2018.
    The pursuit and potential use of weapons of mass 
destruction remains a high-consequence threat to our national 
security. To date, the Department of Defense efforts to 
prevent, protect against, and respond to weapons of mass 
destruction threats have kept the use of these weapons low. 
Despite these efforts, recent media reports of chemical weapons 
used in Iraq and Syria, continued nuclear weapons development 
in North Korea, and the asymmetric use of nerve agent remind us 
the threat is real, global in nature, and potentially growing.
    A key challenge in countering this threat is that many 
technologies that are used for peaceful civilian purposes can 
also potentially be used for developing weapons of mass 
destruction. Emerging examples of these dual-use technologies 
are in the fields of synthetic biology and gene editing. 
Rapidly developing biotechnologies that are easily obtained 
present new threats to the warfighter that we have yet to fully 
understand.
    Today's hearing will allow our subcommittee to provide 
critical oversight on ensuring that the Department's countering 
weapons of mass destruction policies, plans, and programs 
sufficiently address these emerging threats.
    Let me now turn to Ranking Member Jim Langevin of Rhode 
Island for any opening comments he would like to make.
    [The prepared statement of Ms. Stefanik can be found in the 
Appendix on page 29.]

  STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE FROM 
RHODE ISLAND, RANKING MEMBER, SUBCOMMITTEE ON EMERGING THREATS 
                        AND CAPABILITIES

    Mr. Langevin. Thank you, Madam Chair.
    And I want to thank our witnesses for being here today. Dr. 
Hopkins and Mr. Verga, it is very nice to see you here. And Ms. 
Durand, great to be with you for the first time, so thank you.
    Before I give the rest of my opening statement, though, I 
do want to take a minute to acknowledge Ms. Katie Sutton, a 
Sandia National Laboratory fellow that has been on HASC for the 
last 2 years. Katie returns to Sandia to work on cyber programs 
next week.
    During her tenure on HASC, Katie has been a tremendous 
asset and has worked in a bipartisan fashion, particularly on 
CWMD issues. She has many accomplishments to be proud of, such 
as the biodefense strategy provision in the fiscal year 2017 
NDAA [National Defense Authorization Act], on which she was the 
lead.
    Katie, I just want to say thank you for your hard work on 
behalf of the ETC Subcommittee, and wish you well.
    Ms. Sutton. Thank you, sir.
    Mr. Langevin. Thanks. Well, today, we meet to review the 
efforts by the Department of Defense to address the threat of 
weapons of mass destruction. This is an important topic for 
oversight by the subcommittee, and I look forward to hearing 
about the policies and programs at the Department of Defense to 
counter this threat.
    During this past year, we have continued to receive media 
reports of the use of these weapons, including the use of 
chemical weapons by ISIS [Islamic State of Iraq and Syria] in 
Iraq and Syria and the use of VX nerve agent by North Korea. 
These reports illustrate the importance of robust efforts to 
protect the services and the Nation from this continually 
evolving threat.
    Last fall, the agency formerly known as the Joint 
Improvised-Threat Defeat Agency, or JIDA, was transitioned to 
the Joint Improvised-Threat Defeat Organization, or JIDO, 
within the Defense Threat Reduction Agency [DTRA]. This change 
offers the opportunity to achieve savings through common 
efficiencies and to leverage synergy in the organization's 
missions. Efficiencies and synergy include streamlining the 
command structure of JIDO to align with DTRA, consolidating 
human resources and other overhead functions, and reducing 
mission and program overlap in order to focus JIDO on its core 
task and to avoid mission creep.
    It is important that we continue to evaluate the 
Department's programs and efforts to ensure they are 
efficiently and effectively meeting the requirements of our 
warfighters.
    Over the last few years, we have been briefed by the 
Department on Constellation, a prototype of a new CWMD 
situational awareness technology. I certainly look forward to 
hearing what efforts the Department has been taking to work 
with Special Operations Command [SOCOM], which has recently 
taken over the mission for global synchronization for 
countering weapons of mass destruction, to understand the 
requirements of the commander and leverage any existing systems 
to meet these needs.
    Finally, the confluence of the fiscal year 2017 end-of-year 
appropriations, fiscal year 2017 supplemental requests, and 
fiscal year 2018 budget outline have no doubt created 
challenges in executing and planning programs. So I would like 
to ask our witnesses to talk about the day-to-day challenges of 
uncertainty and their priorities on all three of these funding 
mechanisms.
    With that, I thank you again to our witnesses for appearing 
before us today, and, Madam Chair, I yield back the balance of 
my time.
    Ms. Stefanik. We have before us a panel of three 
distinguished witnesses: Dr. Arthur Hopkins, Acting Assistant 
Secretary of Defense for Nuclear, Chemical, and Biological 
Defense Programs; Mr. Peter Verga, performing the duties of 
Assistant Secretary of Defense for Homeland Defense and Global 
Security; and Ms. Shari Durand, Acting Director of DTRA, the 
Defense Threat Reduction Agency.
    While detailed budget numbers for fiscal year 2018 are not 
available at this time, we look forward to a robust discussion 
on the policies and programs in place in the Department for 
countering weapons of mass destruction in 2018.
    Welcome to all of our witnesses. I would like to remind you 
that your testimony will be included in the record, and we ask 
that you summarize key points from that testimony in 5 minutes 
or less.
    And before we begin with Dr. Hopkins, I also would like to 
take a moment to recognize Katie Sutton, who will be returning 
to Sandia National Laboratories, having completed her 2-year 
fellowship with our committee. Katie has been an integral part 
of our team and helped us legislate and conduct oversight in 
many important and complex areas, indeed many of the same 
things we plan on discussing today.
    Katie, thank you for your hard work over the past 2 years, 
and we wish you continued success.
    And, with that, Dr. Hopkins, we can begin with you. And we 
look forward to your opening statement.

STATEMENT OF DR. ARTHUR T. HOPKINS, ACTING ASSISTANT SECRETARY 
 FOR NUCLEAR, CHEMICAL, AND BIOLOGICAL DEFENSE PROGRAMS, U.S. 
                     DEPARTMENT OF DEFENSE

    Dr. Hopkins. Thank you, Chairwoman Stefanik, Ranking Member 
Langevin, and distinguished members of the subcommittee. I 
appreciate this opportunity to testify on the Department's 
efforts to counter threats posed by weapons of mass 
destruction.
    The Office of the Assistant Secretary for Nuclear, 
Chemical, and Biological [NCB] Defense Programs has roots that 
go back to the establishment of the Department, when it was 
focused primarily on nuclear deterrence. Since then, the 
organization's responsibilities have expanded to include 
nuclear, chemical, and biological defense programs, which are 
carried out by four organizations within the NCB enterprise:
    Our Nuclear Matters Office is the focal point for DOD 
activities and initiatives for sustaining a safe, secure, and 
effective nuclear deterrent.
    Our Chemical and Biological Defense Program develops 
capabilities that enable warfighters to deter, prevent, 
protect, mitigate, respond to, and recover from traditional and 
emerging threats.
    Through our Threat Reduction and Arms Control Office, our 
oversight of the Nation's chemical demilitarization program 
focuses on the safe, complete, and treaty-compliant destruction 
of the Nation's remaining chemical weapons stockpile. In 
addition, we ensure DOD compliance with nuclear, chemical, and 
biological treaties and agreements.
    And our Countering Weapons of Mass Destruction Systems 
Program strengthens situational awareness of global WMD 
activities.
    The Defense Threat Reduction Agency addresses the full 
spectrum of WMD-related threats, including cooperative threat 
reduction programs and support to combatant commands, as well 
as threats from improvised devices.
    Today, I would like to highlight some of the enduring and 
the emerging challenges and threats in each area, the ongoing 
activities that we are conducting to address those challenges, 
and our priorities moving forward.
    To counter current and emerging threats like those enabled 
by synthetic biology and nontraditional agents, the Chemical 
and Biological Defense Program is developing new strategies to 
anticipate, prepare, and more rapidly respond, especially in 
the area of medical countermeasures, in addition to developing 
protective equipment and detection systems.
    In domestic chemical demilitarization, the Department 
continues to make significant progress in meeting the Nation's 
commitments under the Chemical Weapons Convention by working 
toward eliminating the last of our remaining chemical weapons 
stockpiles in Colorado and Kentucky. In September 2016, the 
Department started agent destruction operations at the Pueblo, 
Colorado, site. At Blue Grass, Kentucky, facility construction 
is complete, and destruction systems are being tested.
    With the United States Special Operations Command's 
[USSOCOM's] new leadership role in the countering weapons of 
mass destruction mission, we have engaged closely with them to 
understand their mission needs for global situational 
awareness.
    WMD threat reduction programs executed by the Defense 
Threat Reduction Agency continue to reduce the threat of 
weapons of mass destruction around the world by detecting and 
preventing proliferation and consolidating, securing, and 
eliminating dangerous pathogens and materials of concern. These 
efforts are conducted in cooperation with partners throughout 
the world as they enhance their own capacity to secure WMD 
materials, detect and interdict proliferation, and respond to 
WMD-related events.
    WMD threats are real. The Department's activities to help 
reduce these threats include the full spectrum of countering 
weapons of mass destruction activities, from preventing 
acquisition, to containing and reducing threats, to supporting 
crisis response.
    I want to thank you for this opportunity to testify and 
also thank you for your enduring interest and support to these 
important mission areas.
    [The prepared statement of Dr. Hopkins can be found in the 
Appendix on page 31.]
    Ms. Stefanik. Thank you.
    Mr. Verga.

 STATEMENT OF PETER VERGA, PERFORMING THE DUTIES OF ASSISTANT 
SECRETARY OF DEFENSE FOR HOMELAND DEFENSE AND GLOBAL SECURITY, 
                   U.S. DEPARTMENT OF DEFENSE

    Mr. Verga. Chairwoman Stefanik, Ranking Member Langevin, 
members of the committee, again, thank you for the opportunity 
to testify today. I am honored to be here with Dr. Hopkins and 
Ms. Durand to present the Department's approach to countering 
chemical, biological, radiological, and nuclear [CBRN] threats.
    Since the Department testified before the subcommittee on 
this subject 1 year ago, two CBRN-related threats have 
dominated the headlines: those posed by North Korea and the 
Islamic State of Iraq and Syria, or ISIS. Both highlight the 
complex nature of the threat we face.
    The North Korean regime has increased its dangerous and 
provocative CBRN-related activities over the past year. It has 
continued to test nuclear weapons and ballistic missiles, in 
clear violation of multiple United Nations Security Council 
resolutions.
    ISIS poses a different sort of CBRN threat as a non-state 
actor not bound by longstanding norms and laws and with a 
demonstrated willingness to use chemical weapons against 
civilians and combatants alike. While ISIS' capabilities are 
currently far less sophisticated than North Korea's, its 
willingness to use and potentially proliferate CBRN-related 
materials or knowledge to its affiliates elsewhere is of grave 
concern.
    The Department's strategic approach to countering these 
threats focuses on three lines of effort: preventing 
acquisition of WMD, containing and reducing threats, and 
mitigating the consequences of potential use. Our efforts to 
address these threats for North Korea and ISIS reflect this 
approach.
    To prevent the transfer of CBRN or dual-use materials to 
and from North Korea, the Department works closely with 
interagency partners, in part through outreach under the 
Proliferation Security Initiative, or PSI, to the 104 other PSI 
endorsees committed to preventing WMD proliferation. 
Relationships with committed allies and partners are 
foundational to our success.
    We also engage with partners through the DOD Cooperative 
Threat Reduction [CTR] Program, which remains, in the words of 
Secretary of Defense Mattis, ``the Department's most 
comprehensive and effective tool for working cooperatively with 
partners to mitigate CBRN-related threats.''
    Through DTRA's capable implementation, CTR is engaged in 
over 30 countries, helping them detect, secure, or eliminate 
CBRN-related materials and pathogens of security concern. These 
efforts are integrated with those of our interagency partners. 
In Southeast Asia, CTR is building the capabilities of our 
partners to detect and prevent maritime proliferation of CBRN-
related materials, such as those headed to or from North Korea.
    Despite our best efforts at prevention, we must be prepared 
to contain and reduce CBRN threats once they have developed. 
For instance, to contain and reduce the CBRN threats from ISIS, 
the U.S. and our coalition partners are also exploiting 
opportunities on the ground to better understand and disrupt 
their CW [chemical weapons] networks.
    The DOD CTR program is also strengthening Jordan's and 
Lebanon's capacity to prevent proliferation of CBRN materials 
from Iraq and Syria into their territories and to ensure that 
ISIS affiliates in Libya do not acquire or proliferate a CBRN 
capability. We supported interagency efforts to remove chemical 
precursors from Libya and initiated a proliferation prevention 
program with the Government of Tunisia along its border with 
Libya.
    Elsewhere, DOD is working with our key regional allies, the 
Republic of Korea and Japan, to ensure that our focus remains 
postured to respond to CBRN contingencies on or emanating from 
the Korean Peninsula, complementing those engagements in the 
CBRN Preparedness Program, or CP2, which engages bilaterally 
with our partner nations to respond to and mitigate effects of 
a CBRN incident.
    In addition to being prepared to respond to events 
overseas, DOD must ensure we are prepared to support the 
Federal response to a domestic CBRN incident at home. Working 
closely with the Joint Staff, we continue to partner with a 
wide array of interagency partners, including the Departments 
of Homeland Security, Energy, and Justice, to ensure a 
coordinated response to any event in the homeland.
    In conclusion, the acquisition or use of CBRN weapons 
against the United States, our forces, or our interests remains 
among the most dangerous threats we face. With your support, 
the Department will continue to strengthen our capabilities and 
relationships to reduce these threats at home and abroad.
    Again, thank you for the opportunity to testify today, and 
I look forward to any questions you may have.
    [The prepared statement of Mr. Verga can be found in the 
Appendix on page 38.]
    Ms. Stefanik. Thank you.
    Ms. Durand.

  STATEMENT OF SHARI DURAND, ACTING DIRECTOR, DEFENSE THREAT 
          REDUCTION AGENCY, U.S. DEPARTMENT OF DEFENSE

    Ms. Durand. Chairwoman Stefanik, Ranking Member Langevin, 
and members of the subcommittee, it is an honor to be here 
today to share with you the work of the Defense Threat 
Reduction Agency.
    DTRA makes the United States and our allies safer by 
countering threats posed by the proliferation and use of 
weapons of mass destruction. While not a direct focus of 
today's hearing, DTRA also has a new mission area: countering 
improvised explosive devices and other improvised threats. Last 
October, the Department transitioned the Joint Improvised-
Threat Defeat Organization, JIDO, under the authority, 
direction, and control of DTRA.
    DTRA is a unique organization with a broad portfolio that 
is accomplished by an incredibly capable and talented 
workforce. We are very proud of some recent milestones, 
including the accomplishments of the Nunn-Lugar Cooperative 
Threat Reduction Program, which celebrated its 25th anniversary 
last December. And this coming April, we will celebrate the 
70th anniversary of DTRA's Defense Nuclear Weapons School, 
located in Albuquerque, New Mexico.
    Our expertise spans the full spectrum of WMD threats: 
chemical, biological, radiological, and nuclear weapons and 
high-yield explosives. We are a one-stop shop, open 24 hours a 
day to support the Department's functional and geographic 
combatant commands, the military services, and the interagency.
    Over the past 3 years, DTRA moved to a regional vice 
programmatic approach against WMD threats. This allows us to 
support warfighters and allies with more comprehensive and 
integrated methods that are better aligned with the combatant 
commands. Likewise, our regional approach ensures a more 
holistic prioritization of the science and technology [S&T] 
that DTRA pursues and a better understanding of how we 
transition those capabilities to the warfighter and military 
services.
    In Iraq and Syria, ISIS is using chemical weapons on the 
battlefield. Thankfully, the authorities and funding that 
Congress provides DTRA each year allows us to support Operation 
Inherent Resolve and respond to these and other emerging, long-
term WMD challenges.
    I am proud of what our team has accomplished this past year 
and believe that we serve as good stewards of taxpayer dollars. 
As we look toward fiscal year 2018, I am confident that we are 
prepared to address future WMD and improvised threats around 
the world.
    Thank you for the opportunity to be here, and I look 
forward to your questions.
    [The prepared statement of Ms. Durand can be found in the 
Appendix on page 48.]
    Ms. Stefanik. Thank you, Ms. Durand.
    My first question is, the FY [fiscal year] 2017 NDAA 
authorized funding for many critical activities within the 
Chemical and Biological Defense Program, the Chemical 
Demilitarization Program, and at DTRA. What have been the 
impacts of the continuing resolution, the CR, so far this 
fiscal year? And can you describe the impacts to your programs 
for a full-year CR for fiscal year 2017?
    Dr. Hopkins.
    Dr. Hopkins. Thank you, Chairwoman, for the question.
    We are making it work because it is the reality of the 
budget situation. But the continuing resolution really limits 
our ability to do longer-term planning because of the way the 
funds come in in increments.
    And so I would say that the nature of the people who do the 
work for us is such that they will make the programs work given 
the constraints. However, it does limit our ability to plan and 
adapt. Especially if things come up in the near term or medium 
term that require different levels of funding; the continuing 
resolution doesn't allow that. So it does tie our hands a bit.
    Ms. Stefanik. Mr. Verga.
    Mr. Verga. I would just go along with what Dr. Hopkins 
said. It is obviously always better to have a full-year budget 
appropriation because it does allow you to implement a program 
that you have laid out in an orderly fashion, you know, given 
what you expected to get in the appropriations that were asked 
for in the budget. And a CR, it just trips you up when you get 
started, and you can't really do what you need to do.
    Ms. Stefanik. And Ms. Durand.
    Ms. Durand. I will give you a couple specifics from an 
agency perspective.
    One, it more than doubles our workload. When you do 
incremental funding as the CR funding comes in, we are having 
to incrementally fund all of our contracts. So that means for 
the contracting staff, who is already overworked, they are, in 
essence, doubling their work throughout the year.
    That also adds to our comptroller support office, who are 
also having to do a lot of accounting and other budgetary 
actions when the Department is working very hard towards our 
financial improvement and audit readiness.
    So part of that is just a workload capacity. As Dr. Hopkins 
said, we will get it done, but at a time when we need everybody 
more focused on direct mission support, that makes it 
difficult.
    For us specifically, another one that we encountered, when 
JIDO came under us, one of the things we didn't expect was, in 
the 2016 budget, was with the Army, because the Army was the 
executive agent for JIDA. Because of the continuing resolution, 
that funding was appropriated to the Army, and it did not come 
directly to DTRA.
    So, again, that means the accounting and the budgetary, 
means it has to go on--if the money goes to the Army, we have 
to get it from the Army. We have to do double budgeting and a 
lot of budgetary transfers in our books. So it just makes it 
very complicated.
    Ms. Stefanik. Thank you very much. It is important for us 
to get on the record the negative impacts that a continued CR 
would have on the DOD, so thank you for those thoughtful 
answers.
    My second question is for Dr. Hopkins.
    Recent technological advances in the areas of synthetic 
biology and gene editing have created a bio revolution that has 
increased the capability and availability of biotechnology.
    Last fall, the President's Council of Advisors on Science 
and Technology released a report on this topic that concluded, 
quote, ``Just as rapid advances in biotechnology have increased 
the risk of misuse by bad actors, they have expanded the tools 
available to protect the public.''
    How is the DOD responding to the emerging threat faced by 
these new technologies? And can the Department apply these new 
technologies to counter the potential threat?
    Dr. Hopkins. Thank you, Chairwoman, for the question.
    You are absolutely right; the new technologies really are a 
double-edged sword.
    One of the challenges we have is, in looking at the 
potential effects on national security, we want to make sure 
that the things that we do to try to protect ourselves don't 
interfere with the development of the application of the 
technology for peaceful, useful purposes. And so that, combined 
with the fact that it is an emerging area, really causes us to 
step back and try to understand what will be or what could be 
the potential national security impacts of synthetic biology.
    We have asked the National Academy of Sciences to step in 
and help us, in an interagency study, to look at the potential 
impacts on security, about what timeframe would we expect 
potential nefarious capabilities to be available to bad actors, 
and what can we do about it.
    And the things that we would do about it really fall into 
at least three areas. The ability to know it is happening in 
the first place, because if we are talking about a biological 
threat, how do you know what it is? How do you know it has 
appeared? And so we are working very hard on detection 
technologies to understand when and if we may be subject to 
those kinds of attacks.
    Protection is the second area. As you know, the classic 
chemical-biological protection is a mask, a suit, a glove, 
individual protection, collective protection, that sort of 
thing. We have to make sure that our science base is up to the 
task and actually developing capabilities to protect the 
warfighter. And so challenging the things that we have on hand 
now that are classical in the face of those kind of threats is 
very important.
    The third area is mitigation, what are you going to do 
about it. And since we are talking about the biological side of 
things, medical countermeasure development is right at the 
forefront. The same tools, synthetic biology, that we are 
concerned about as being capable of being used against us we 
are also using in the laboratories to help develop 
countermeasures. And so our ability to come up with vaccines, 
therapeutics, even laboratory equipment that will help identify 
what the threat is--very important to us.
    And so those three areas--detection/protection and medical 
countermeasures and mitigation--are the places where we are 
investing to try to counter that.
    Ms. Stefanik. Thank you, Dr. Hopkins. I now recognize Mr. 
Langevin.
    Mr. Langevin. Thank you to our witnesses again for being 
here.
    Ms. Durand, if I could start with you, JIDO was an 
organization that continually evolved and had an uncertain 
future. As I mentioned in my opening statement, the alignment 
of JIDO onto DTRA should result in both synergy and 
efficiencies as well as provide an opportunity to focus JIDO on 
its core mission and define its future.
    So I wanted to know, what synergies are there between DTRA 
and JIDO? What efficiencies have been achieved as a result of 
the realignment? And how is the Department using the alignment 
as an opportunity to focus JIDO on its core mission and the 
size and scope of the organization for that mission to achieve 
maximum effectiveness. And, finally, has the term ``improvised 
threat'' been defined?
    So if you want me to repeat any of those--I threw a lot at 
you--I would be glad to.
    Ms. Durand. Thank you for those questions.
    Two weeks ago, we briefed the staffers on highlighting all 
the efficiencies that we have gained since JIDO came under us. 
I would preface all my comments with: It really has only been 
since October. So we spent, after the decision was made last 
January up until October, when they officially came under us, 
spending a lot of time getting everything ready to come under 
us. That was an enormous challenge, just getting 235 JIDO 
civilian employees transferred from the Army into DTRA.
    One of the first things that we did is we have consolidated 
eight of the offices that were previously in JIDO. Those are 
the ones that you touched on: human resources, inspector 
general, contracts, comptroller, general counsel, legislative 
and public affairs, security, and counterintelligence. JIDA, at 
the time, was standing up to be its own defense agency, so 
those offices were standing up, so we just took those offices 
and those individuals and merged them into ours. And so we are 
moving forward with--they have entirely new systems that they 
have to learn, so we are spending a lot of time getting them up 
to speed.
    You had mentioned in your opening comments about the senior 
structure. So JIDO previously had four Senior Executive Service 
members. One of those was a term appointment, so that ended. So 
we are working on recognizing the need to shrink that senior 
leadership level down, so we are pushing towards that.
    The efficiency--so two key areas that we are looking at, in 
information technology [IT] and our research and development 
capacities. DTRA has a lot of testbed capacity in our research 
and development, test and evaluation world, and JIDO will be 
able to use those test ranges. So that will, in time, reduce 
their costs associated with test range costs. So that is one 
specific thing.
    JIDO is very proficient and has a great deal of experience 
in information technology, especially how it supports the 
warfighter. So all their efforts that they have spent years 
developing on situational awareness for improvised threats, on 
attacking those networks, we are finding to be very helpful to 
us in the CWMD community. So, in our IT worlds, they are 
working very much together to figure out what synergies that 
are there, what things can we combine, what things may need to 
remain separate.
    We have also, recognizing the committee's desire to show 
savings, we are keeping track of those. I cannot sit here and 
tell you that we have gained a tremendous amount of savings. It 
takes quite a bit for this type of an integration. There are a 
lot of upfront costs and time that go into it. But we fully 
expect over a certain amount of time--and it may take a couple 
years--that we would be able to come back to you and show you 
specific metrics and dollar savings.
    One quick one I would give you is, when JIDO was going to 
stand up, they were going to have to buy their back-room human 
resources services. So that is the processing a lot of actions. 
They would have gained those services from the Defense 
Logistics Agency (DLA), which is a working capital entity, so 
they would have been paying DLA for that support. So it was 
about $1.5 million. That is a cost avoidance that they avoided 
with that, and now they are just merged in with ours.
    So we are seeing some savings, but I would expect them to 
grow over time.
    To your question on focusing on the mission, so we do think 
that because they are now under DTRA and they are not having to 
do all the things related to being a separate entity and a 
separate agency, they will benefit from all the structure that 
we have in place already, so they don't have to be bothered 
with that.
    To your specific question, is ``improvised threats'' 
defined well? No. You could use the term ``improvised threats'' 
and that could be everything that goes on within the 
Department. So we are continuing to look at and to make sure 
that we are following, I think, the guidance the committee has 
been concerned about before of the mission creep.
    I hope I addressed each one.
    Mr. Langevin. You did. You hit them all. That is very good. 
Thank you very much.
    My time has expired. Hopefully we will get to a second 
round, but if not, I yield back. Thank you.
    Ms. Stefanik. Dr. Wenstrup.
    Dr. Wenstrup. Thank you, Madam Chair. I appreciate it. 
Thank you all for being here today on a very interesting and 
concerning topic, as you well know.
    Dr. Hopkins, I want to talk to you for a little bit. I 
looked back at, like, DOD response to the Ebola virus and our 
engagement there, and I think, actually, a lot to be proud of 
with that mission and challenging situation.
    I also look at trying--the balance of Department of Defense 
or the military to serve in combat roles. And that is not a 
combat role, but we could be in a combat environment where 
there is an outbreak of some entity like that that we have to 
be concerned with.
    And then where does HHS [Department of Health and Human 
Services] come into play, and how do you see those roles? Do 
they cooperate? How are we engaging in that way? And what were 
the lessons learned from that mission?
    Dr. Hopkins. Congressman, thank you very much for the 
question.
    I think the success of the Defense Chemical-Biological 
Defense Program is very, very much dependent on how well we 
coordinate with the other government stakeholders in this area: 
Health and Human Services, Homeland Security, CDC [Centers for 
Disease Control and Prevention], National Institutes of Health, 
Agriculture. I mean, there are a number of government agencies, 
all of whom have a stake in this area.
    Our focus is on biological threat agents, and so in order 
to make sure that the warfighter has the therapeutics and the 
diagnostics and the capabilities to know that they are under 
attack and even protect them with vaccines. That is--I don't 
want to call it a niche, but that is a very important part, 
that is a lead part of what we do.
    Having said that, the science associated with developing 
those countermeasures, as well as the coordination on the basic 
science for this, is something that we have to share. And I 
think that happens very effectively through a group called 
PHEMCE, the Public Health Emergency Medical Countermeasures 
Enterprise. It is all the agencies that I just mentioned all 
coming together primarily for the purpose of making sure that 
the Nation has a stockpile of therapeutics and vaccines in the 
event of a natural outbreak, but we also leverage that 
capability to make sure that the Department has what it needs.
    As far as lessons learned from the Ebola outbreak, to me, 
the single largest lesson is that the Department has a lot to 
offer. While we may not have the lead in a natural outbreak, 
the Department has quite a capability that we can leverage and 
we can contribute to natural outbreaks like that.
    Again, going back to my original point, the number one 
lesson we learned is it is really, really important to be 
talking to and collaborating with the other government agencies 
who have a stake in the successful outcome of events like 
those.
    Dr. Wenstrup. In that particular situation, you know, you 
don't know these outbreaks are coming; these are new viruses. I 
am just curious how the military trains for that mission. I 
guess it is more generic training and education as you roll 
out, I would imagine. Would that be the case?
    Dr. Hopkins. I think it is actually that, but it is also 
the military laboratories--the Navy laboratories, the Army 
laboratories--are always forward-looking, and they are always 
coordinating with the civilian side to make sure that the 
military has the situational awareness and knows what 
capabilities are out there--our own and on the civilian side.
    So, again, I think it comes down to the collaboration and 
the situational awareness that is provided by the leading-edge 
researchers and developers at the service laboratories.
    Dr. Wenstrup. And the coordination has been good, in your 
opinion?
    Dr. Hopkins. Yes, it has been.
    Dr. Wenstrup. Thank you.
    Ms. Durand, if I could ask you real quickly, in the 
intelligence community, how is the cooperation between 
intelligence community and--with what is going on, we would 
always hate to hear that there wasn't conversation back and 
forth. Do you feel like there are any gaps there that we need 
to address? Should Congress be helping in any way in that 
regard?
    Ms. Durand. I will tell you that DTRA enjoys an incredibly 
strong partnership across the entire intelligence community.
    I would also tell you that, in the very short time that 
USSOCOM has had the synchronization mission, they are so 
interwoven with the entire intelligence community. General 
Thomas, in particular, is very actively going after this in 
terms of what else does he need from the intelligence community 
for the CWMD mission, and I have no doubt he will make great 
strides in that regard.
    We have also experienced in some recent exercises that some 
of my folks have participated in--the feedback that I get from 
them is that they have never seen a time when there was more 
involvement and better partnership across the entire 
interagency, with our allies, and with the intelligence 
community.
    So I can't tell you that I see any gap. I can give you the 
assurance that if there is one, General Thomas will find it and 
he will correct it.
    Dr. Wenstrup. Okay. Thank you. I yield back.
    Ms. Stefanik. Ms. Gabbard.
    Ms. Gabbard. Thank you very much.
    Prior to the first Gulf War, it was disclosed that Iraq had 
produced 19,000 liters of concentrated Botulinum-A toxin to be 
used in weapons. Given that 1 aerosolized gram of this toxin 
could potentially kill up to a million people, where would DTRA 
rank this toxin in terms of threat level, where we are today?
    Ms. Durand. So that one, I am not sure. So I would like to 
take that one for the record and get back to you so I give you 
the correct answer.
    Ms. Gabbard. Sure. I appreciate it. As you go through that 
follow-up, I would be interested to see if there are any 
current programs or plans underway that recognize this threat 
and countermeasures to deal with it.
    [The information referred to can be found in the Appendix 
on page 70.]
    Ms. Gabbard. Given that the FDA [Food and Drug 
Administration] approval process for medical countermeasures 
can be lengthy and unpredictable, what kind of risk does that 
present to the DOD in wait times for FDA approvals for any 
countermeasures that we may need in a tighter timeline? 
Generally, not specifically for this toxin, but generally.
    Ms. Durand. DTRA is not specifically involved in that piece 
of the process. I would defer to Dr. Hopkins on any of those 
specifics.
    Ms. Gabbard. Sure.
    Dr. Hopkins. Thank you very much.
    First of all, let me say that the FDA approval process is 
critically important to the successful production of the 
vaccines and therapeutics that we need.
    And so, having said that, we are doing everything we can to 
work with the FDA, starting early in the process. We have 
learned over the years that it is best to engage with the Food 
and Drug Administration very, very early so that we can 
understand the process as well as work with them in speeding 
things up.
    We also, through the passing of the Cures Act, we in the 
Department have authority now to offer priority review vouchers 
and obtain orphan drug designations for some of our low-volume, 
limited-distribution kind of products, and so that is very, 
very helpful to us. In fact, most recently, the plague vaccine 
has received FDA orphan drug status, and that was funded by the 
Chem-Bio Defense Program.
    So bottom line is we are using whatever means we can to 
accelerate and work very closely and early with the Food and 
Drug Administration because we know that their involvement is 
important to the production of safe products.
    Ms. Gabbard. Thank you. I yield back.
    Ms. Stefanik. Dr. Abraham.
    Dr. Abraham. Thank you, Chairwoman. I thank the witnesses 
for being here. This is a vital topic, in my opinion.
    And, Mr. Verga, thank you for your service in Vietnam. We 
appreciate that very much, sir.
    I am going to pony a little bit off of Dr. Wenstrup and 
Chairwoman Stefanik and go back to the synthetic biology. Of 
all this nuclear, chemical, and biological things that do keep 
me awake at night, I think the biological is the one that I 
spend most of the time looking at the ceiling, because it is 
cheap, it is available, and, as Dr. Wenstrup alluded to, you 
could have a human vector to transmit the pathogen.
    And to weaponize a virus or bacteria with what you 
gentleman know, certainly you, Dr. Hopkins, with the CRISPR-
Cas9 [Clustered Regularly Interspaced Short Palindromic 
Repeats] technology, the genetic engineering, which can be done 
now in any biochemical lab with a person of just normal 
intelligence that has a master's or certainly a Ph.D. in that 
type of instance, this can become a real threat very quickly.
    My question, Dr. Hopkins, to you first. You said you were, 
and I understand, talking to State governments and the people 
in those agencies that we need to talk to, but we all know that 
if a terrorist organization wants to do this, we are not 
talking to them.
    Are there any--and I understand it is difficult, but are 
there any checks and balances today that at least can give us a 
little hint of something that may be coming? Because, as Ms. 
Gabbard said with botulism, mitigation is not an option here 
because we are too far behind the power curve. So the question 
is, what is out there to stop this? And what can we as Congress 
do to help you accomplish that goal?
    Dr. Hopkins. Thank you, Congressman, for the question. The 
short answer is I am not aware of a specific action or a----
    Dr. Abraham. And I am not either. That is why I asked the 
question. I am not aware of any either.
    Dr. Hopkins. But I think what that does is it really points 
to the importance of the study that we have commissioned with 
the National Academy of Sciences. Because, as you and I think 
about this, we would both conjure up notions of some really bad 
things that could happen in the hands of people who don't need 
a lot of training or a lot of equipment----
    Dr. Abraham. It sounds like science fiction, but it is not. 
It is here.
    Dr. Hopkins. It does.
    What we have asked the Academy to do is kind of separate 
the science fiction from the reality and recognize what reality 
is today and help us to understand the national security 
implications. What is the art of the possible in the near term, 
in the mid term, and the long term, as well as to identify what 
can we do about it.
    We know that the first step is detection. We know that, 
first of all, we have to know we are under attack. And so we 
know that the laboratories are already thinking about ways that 
we could detect a genetically modified version of some disease. 
So that is the starting point, and we are already working on 
that.
    But I really think the key to framing this, framing the 
whole potential threat is the National Academy, the national 
experts thinking through this, with the assembly of the various 
stakeholders, Health and Human Services and Homeland Security 
and so forth, and Department of Defense, so that we can wrap 
our arms around it.
    Dr. Abraham. Ms. Durand, anything we can do in Congress to 
help you guys out?
    Ms. Durand. Not that I can think of right now. I would tell 
you that in the chem-bio S&T world for science and technology, 
one of our top priorities is finding an integrated early-
warning system and process to do just what Dr. Hopkins had 
talked about, because just finding what is out there and 
knowing it is coming is critical. So I would expect our work 
would progress in that area.
    Dr. Abraham. Anything to add, Mr. Verga?
    Mr. Verga. Nothing other than just I think the recognition 
of the problem is the first step, you know, towards dealing 
with it. And I think it is important----
    Dr. Abraham. I think we recognize that it is out there.
    Mr. Verga. Yes, sir.
    Dr. Abraham. Thank you, Ms. Chairwoman. I yield back.
    Ms. Stefanik. Mr. Veasey.
    Mr. Veasey. Thank you, Madam Chair.
    I had a question I wanted to ask you. I know that on this 
committee we have been closely monitoring military readiness 
levels. And I would like to hear your assessment of our current 
readiness levels dealing with chemical, biological, 
radiological, nuclear equipment, and personnel across the DOD 
and other agencies.
    And any of you can answer that.
    Dr. Hopkins. Thank you, Congressman.
    For the traditional agents and threats that we have been--
mustard, nerve, chemicals, the known biological systems--I 
believe that the investments that the Department has been 
making for decades in masks, suits, gloves, individual 
protection, collective protection, and all of those areas have 
provided a certain degree of readiness, an adequate degree of 
readiness for encountering those classical agents.
    In the area of emerging threats, emerging infectious 
diseases, synthetic biological, engineered diseases, I don't 
think we know how good we are or how bad we are. And that is an 
area where we are focusing and we have to continue to focus.
    Mr. Veasey. Also, I wanted to switch to the Middle East and 
North Africa, and I wanted to ask if you could discuss how the 
current events there are impacting DTRA's operations and 
planning. And have you received any additional requests for 
support from CENTCOM [Central Command] and AFRICOM [Africa 
Command]? And what are some of your largest concerns there?
    Ms. Durand. So, obviously, as the military campaign against 
ISIS continues in Iraq and Syria, ISIS is regrouping, 
specifically in those areas of the Middle East and North 
Africa. DTRA works with partner countries in those regions to 
help contain and reduce those threats from terrorists that are 
obtaining WMD materials. That could certainly destabilize those 
regions and lead to large refugee flows.
    In countries where there is active, ongoing violence, such 
as in Iraq, our CTR operations have been curtailed 
significantly, and our engagements have been limited to VTC 
[video teleconference] instead of being able to go there in 
person.
    In countries where violence is sporadic and the security 
situation is delicate, such as in Lebanon and Jordan, our CTR 
operations have continued to provide the security environment--
that that environment is stable enough for our operations. But 
we encountered delays, but they have been short in duration.
    So, in essence, our work there has been limited because we 
are always focused on the safety of our people before we send 
them over there. And so that limits us with what we can do.
    Mr. Veasey. Thank you very much.
    And I wanted to also ask one more question related to 
Ebola. You know, we had one of the more high-profile cases in 
Dallas County, which is an area that I represent. And I wanted 
to know what lessons that you feel we have learned that have 
been put into practice. And how would you assess the DOD's 
ability to respond similarly in future cases?
    Mr. Verga. I will comment on that.
    The first thing, I think what DOD brings to a situation 
like the Ebola outbreak is our organizational ability, our 
planning ability, our logistics, and those sorts of things.
    I think we learned from the Ebola outbreak the necessity of 
having the capacity to transport folks. You know, we made an 
investment in the patient transportable pods that could be put 
into our military medical evacuation aircraft to do things like 
that.
    But I think the primary thing is early detection. I think 
the earlier we can recognize that that is what the problem is 
and the earlier we can get ahead of the curve on trying to deal 
with the problem is probably where we are at. And so I think 
our efforts in early detection and warning of outbreaks is 
probably where our best investment can be made.
    Mr. Veasey. Thank you. Madam Chair, I yield back.
    Ms. Stefanik. Mr. Wilson.
    Mr. Wilson. Thank you, Chairwoman Stefanik. And thank each 
of you for being here today and on these important issues.
    And, indeed, our subcommittee has been very fortunate to 
have a Sandia fellow, Katie Sutton, here. In fact, she brings 
good news and bad news. Last year, she brought bad news, but it 
needed to be addressed, and her professionalism has certainly 
come through.
    Last year, we had the mishandling of the live anthrax 
samples that were sent from Dugway to 86 government and private 
labs and other facilities in the United States and 7 other 
countries: Australia, Britain, Canada, Germany, Italy, Japan, 
and South Korea.
    Mr. Verga, what is the status of the report requested in 
fiscal year 2017 NDAA regarding the mishandling of the anthrax 
shipments? What is the status of any corrective actions that 
have been put in place to make sure this type of incident is 
prevented in the future? And what efforts are being taken 
within the Department to reduce the amount of select agent 
number of labs that handle select agents?
    And this could be answered really by anyone, but if you 
would begin.
    Mr. Verga. I am afraid I would have to get back to you on 
that because I don't know the details, but I will provide that 
to you.
    [The information referred to can be found in the Appendix 
on page 70.]
    Mr. Wilson. Okay.
    Ms. Durand.
    Dr. Hopkins.
    Dr. Hopkins. On the status of the report, I will have to 
get that answer for you. If I could take that for the record, 
we will get that status.
    [The information referred to can be found in the Appendix 
on page 69.]
    Dr. Hopkins. As far as what the Department has done, we 
recognized as a result of those inadvertent shipments that the 
handling of those agents was being done in different chains of 
command and there was not unity of effort or unity of oversight 
over the years.
    And so one of the things--I think the most significant 
thing that the Deputy Secretary did is he designated the 
Secretary of the Army as the executive agent for all work with 
biological select agents. And that has had a unifying effect, 
and it has introduced a certain amount of discipline into the 
process. They are responsible for reviewing and inspecting all 
of the laboratories that handle biological select agents and 
toxins. And they have also looked outside themselves. They have 
gone to establish an expert panel to review the procedures, 
such as the ones that didn't work at Dugway.
    And so I think we are in much better shape than we were 2 
years ago on this, primarily because of that action. There have 
been a number of actions below that in order to introduce more 
discipline and care at the laboratory level, but I think the 
most significant thing was establishing the Secretary of the 
Army as the Department's executive agent for overseeing all 
work with those select agents.
    Ms. Durand. I have nothing further to add.
    Mr. Wilson. And, again, Katie Sutton was just terrific, 
bringing this to our attention, monitoring this. Her 
professionalism always comes through. And we are going to miss 
her as she departs for another great assignment.
    Additionally, for Ms. Durand, Dr. Hopkins, the FY 2017 
supplemental budget request included a supplemental increase of 
$127 million for the Chemical Demilitarization Program due to 
engineering challenges and increased contract costs.
    Can you explain the justification for this additional 
request? What is the impact if this funding is not received? 
Will the program be able to complete all required destruction 
by the 2023 deadline? What mitigation steps are being put in 
place for this program to prevent further cost and schedule 
overruns?
    Dr. Hopkins. Thank you, Congressman, for that question.
    Just for some context on this, the Chemical 
Demilitarization Program in the United States is working on 
eliminating the last 10 percent of what the United States 
declared to the Chemical Weapons Convention. We declared 30,000 
tons several years ago.
    And this Assembled Chemical Weapons Alternatives [ACWA] 
program is the program that has the two sites, one in Kentucky 
and one in Colorado, and there has been major progress at both 
of those sites. In Pueblo, they have started operations. In 
Blue Grass, they are going through systemization.
    There is a request in the supplemental for additional 
resources, and that is primarily to recover some schedule in 
order to make sure that we make the 2023. And, actually, in 
large-scale processes like these, the more we can invest up 
front, the higher the likelihood is that it is going to reduce 
the lifecycle cost of this.
    The need for the increase was really due to a number of 
factors. Primarily, we did not anticipate the fact that the 
first-of-a-kind technologies that are being used at both 
locations would require so much rework. And I could go into 
gory detail on some of the things, like redoing welds and so 
forth, but, in both cases, in Pueblo and in Blue Grass, there 
has been unexpected, unplanned need for some additional rework 
in order to get the systems up and running.
    And when I say we didn't anticipate it, I can be very 
specific; we didn't anticipate last year. Because, last year, 
in an attempt to reduce the amount of money that the program 
carried over from one year to another, the ACWA program gave 
money back, returned money, so that it could be rephased in the 
out-years. And so, as a result, at the same time we are 
returning the money so that it can be rephased in later years, 
the need for this rework, the emerging challenges also 
appeared, and that resulted in an actual need for the money in 
2017.
    So what we are essentially trying to do is put money back 
into 2017 that we had reprogrammed into the out-years in order 
to make sure that we make the 2023 schedule.
    Mr. Wilson. Thank you very much.
    Ms. Stefanik. Ms. Cheney.
    Ms. Cheney. Thank you, Madam Chairwoman. Thank you very 
much to our witnesses for being here today.
    I wanted to dig a little deeper in terms of what we are 
doing to protect our warfighters and, in particular, the extent 
to which we are facing increasing threats on the ground in Iraq 
and Syria.
    Mr. Verga, maybe we could start with you. Just in terms of 
the assurances that you feel, the confidence that you feel that 
we are in a position where we are providing our men and women 
in uniform with the very best possible protection against the 
growing threat that they may be facing on the battlefield from 
these types of weapons.
    Mr. Verga. Well, we have a great deal of confidence in the 
equipment and the training that our forces have in order to 
deal with these threats. I mean, it is one that we have 
recognized over time, made significant investments in our 
ability to counter those threats, and are now working with our 
partners and allies in the area to, in fact, provide to the 
allies, to the Iraqis and to the Kurds, equipment through 
cooperative programs that DTRA and Dr. Hopkins can speak to a 
little bit more in detail to be able to deal with those.
    Again, I think the importance is recognizing the threat. I 
mean, ISIS has, in fact, used both chemical weapons and toxic 
industrial chemicals, you know, against our forces and against 
our allied forces there.
    I don't know if you had anything to add.
    Dr. Hopkins. Thank you.
    In addition, we are making sure that our laboratories, such 
as Edgewood in Maryland, where they actually do challenge our 
ability to protect the warfighter with masks and suits and 
gloves, we are making sure that the things that we are giving 
the warfighters are effective against what we believe to be the 
actual materials that are being used in the field.
    Ms. Durand. Just to add a little bit more, DTRA's specific 
role in the science piece of that, our chemical and biological 
folks get a lot of feedback from the Joint Program Office on 
how the development that we did, how that is actually working.
    Another great program that we have is the Scientists in the 
Foxhole program, in which we take our scientists who are 
working on the initial phases of developing that equipment that 
will give the best protection to the warfighter, we send those 
scientists out into the field with the warfighter so they can 
get that immediate feedback. And that helps them tremendously 
in understanding, as they are doing the research and the 
scientific work, what works for the warfighter and what 
doesn't. So that has proven to be very successful.
    Ms. Cheney. And just to follow up, in terms of the 
increasing capabilities that we are facing from our adversaries 
in these areas, could you provide a little bit of information 
about the extent to which our technology and ability to defend 
against what we are seeing and the increasing availability of 
some of these weapons, whether you feel that we are keeping up 
sufficiently in terms of the progress that is being made by our 
enemy?
    Mr. Verga. My hesitation is I am trying to think if in an 
unclassified format we can talk about where we are in that. I 
think I would prefer to defer that, because we couldn't get 
into any real specifics.
    Ms. Cheney. All right. That is fine. Thank you.
    And I just wanted to follow up on where we are on the 
national biodefense implementation and strategy. I know you are 
going to be coming back to us in September of this year, but if 
you could talk a little bit about, sort of, the preliminary 
work that has been done and, you know, how you think things are 
going based on the requirement in the last NDAA.
    Mr. Verga. Thank you.
    Of course, the Department of Homeland Security is leading 
that review. We and the Department of Defense are cooperating 
with them, along with HHS and Department of Agriculture and 
many other organizations.
    We did provide a briefing to staff on where we are at on 
it. And, as you said, the report is due in September, and we 
think we will be able to deliver that on time.
    Ms. Cheney. Thank you very much. I yield back.
    Ms. Stefanik. Mr. Scott.
    Mr. Scott. Thank you, Madam Chair. Ma'am and gentlemen, 
thank you for your service to the country.
    And my question gets back to our interaction with other 
countries that we may not necessarily share values with, but we 
share interests with. Obviously, the country of Russia comes to 
mind. Russia and the United States were key to getting Syria to 
destroy their chemical weapons.
    How much dialogue do you have with counterparts in other 
countries about what the most pressing threats are and the most 
efficient ways to eliminate those threats?
    Mr. Verga. I would describe the interaction we have with 
our allies and friends as robust. We have a----
    Mr. Scott. If I may, I am also talking about people that we 
don't consider to be allies or friends, but that we may have a 
shared interest with in this particular field.
    Mr. Verga. Yeah, I would have to check on that one, sir. I 
am sorry. I don't have that right offhand.
    Mr. Scott. I would be interested in your answer if you 
think that perhaps that is something that we should pursue.
    [The information referred to can be found in the Appendix 
on page 70.]
    Mr. Scott. If you would, then, go ahead with our allies and 
friends, if you would.
    Mr. Verga. With our allies, we do have a robust cooperative 
program with them, cooperative research and development 
programs, working very closely with, you know, particularly our 
NATO [North Atlantic Treaty Organization] allies and also 
others to be able to be share information regarding the threats 
and regarding the countermeasures.
    I know Dr. Hopkins can talk a little bit more about some of 
the specific programs.
    Dr. Hopkins. Yes. In addition to the sharing information 
about the potential threats, we have very active, detailed 
engagements with our closest allies on mitigations and 
identifying ways to protect us, and especially in the NATO 
scenario, where we have a common standard for the performance 
of various countermeasures. So closest allies, very strong and 
very effective and helpful to us.
    Mr. Scott. I would be interested in your comments, as well, 
all of your comments, about whether or not this is something 
that we should look into, whether we should or should not 
potentially share information with countries where we have that 
shared interest, if you will, even though we don't share 
values.
    I know that the issue with Syria, for example, is one where 
it took an agreement with Russia to actually get those weapons 
destroyed.
    But, with that, Madam Chair, I will look forward to the 
written response, and I thank you for your service to the 
country, and I yield back the remainder of my time.
    Ms. Stefanik. Thank you. We will now go to the second round 
of questions for members who are able to.
    My question is a follow-up, Ms. Durand, to Mr. Veasey's 
line of questioning. And in your testimony, you highlighted 
DTRA's growing activities in the Middle East and Northern 
Africa both in the context of support to Operation Inherent 
Resolve and the Cooperative Threat Reduction Program.
    But can you discuss how DTRA prioritizes which nations 
receive support? And how does DTRA leverage other government 
agencies in these efforts?
    Ms. Durand. I can. Thank you.
    A lot of our priorities come from the two offices that Mr. 
Verga and Dr. Hopkins represent. So the priorities flow from 
the Department of Defense down through the Office of the 
Secretary of Defense.
    In our own internal planning for our priorities, we have a 
lot of interaction with the combatant commands. So we get a lot 
of our priority input from them. We have our own robust 
strategic planning process within the agency on determining 
what are the greatest threats, what are those priorities, and 
then, as we build our budgets, we focus on those. But all those 
are fed through other avenues throughout the Department.
    Ms. Stefanik. And then how does DTRA leverage other 
government agencies in these efforts?
    Ms. Durand. So that part is critical to us. We have very 
robust partnerships across the interagency. There are various 
things that the Department of State does with us related to the 
Cooperative Threat Reduction Program. We have mentioned before 
Health and Human Services. They do a lot of work.
    So we are constantly coordinating and synchronizing and 
making sure that no one is duplicating efforts. And, in 
essence, it ends up being a leveraging of capabilities across 
the entire government so everyone knows where their lanes are 
and they can focus on their specific areas of expertise.
    Ms. Stefanik. It is clear that there are growing needs of 
support. And what are your concerns about the growing need for 
this support?
    Ms. Durand. Support----
    Ms. Stefanik. In the region.
    Ms. Durand. Can I take that one for the record? I will have 
to get back to you on that.
    Ms. Stefanik. Absolutely.
    Ms. Durand. Thank you.
    [The information referred to can be found in the Appendix 
on page 69.]
    Ms. Stefanik. I will recognize Mr. Langevin for his second 
round of questions.
    Mr. Langevin. Thank you, Madam Chair. Again, thanks to our 
witnesses.
    Dr. Hopkins, as you know, for the last 2 years I have 
followed the program Constellation. And the program is being 
resourced by the Office of the Secretary of Defense and 
executed by DTRA to fulfill a STRATCOM [Strategic Command] 
requirement, although, I must say, it is worth noting our 
committee--I never heard directly from STRATCOM on this 
particular need or program, which I find curious.
    But now that the CWMD synchronization role has transferred 
from STRATCOM to SOCOM, how is the Department clarifying 
situational awareness requirements of that command?
    Dr. Hopkins. Thank you for the question. It is especially 
timely. As you probably could tell from the testimony, we have 
discontinued the prototype that was called Constellation, 
primarily due to the limitation of funds that was in the NDAA 
draft and in the final language.
    Having said that, though, the requirement for situational 
awareness is as strong or stronger than it ever has been. The 
commander of SOCOM has said more than once that he has a very 
firm, strong need for common intelligence and common operating 
pictures. And that is the essence of what situational awareness 
is, and that is the essence of what the Constellation prototype 
was intended to provide.
    Two things are happening. One is your language in the NDAA 
basically asked us to have an independent look at the system, 
the requirements, and the plans, and we are doing that. We have 
hired a federally funded research and development company to go 
ahead and objectively look at requirements, including the ones 
that you referenced might have come from STRATCOM at the time, 
but the requirements for all the combatant commanders for 
situational awareness of WMD-related things.
    And our plan is to take the resources that we have and any 
future resources and work with STRATCOM and work with DTRA and 
adapt those parts where we did learn especially useful things 
from Constellation and adapt them to the common intelligence 
and the common operating picture that SOCOM needs in order to 
perform their function as the synchronizer.
    So we are in the process of doing that. We will get the 
requirements and the plans, in other words work with the FFRDC 
[federally funded research and development center], and then 
also adapt what we have directly to the needs of the combatant 
commander.
    Mr. Langevin. So how underresourced were you for the 
program that you had to cancel it?
    Dr. Hopkins. Trusting my memory here, about $25 million.
    Mr. Langevin. So are you saying that you are coming up with 
a replacement program, Constellation Lite? Or is it----
    Dr. Hopkins. I don't know what we would call it yet. We are 
looking at the requirements, and we are going to work with 
SOCOM and DTRA to understand what would be the most useful and 
helpful ways to obtain and depict situational awareness of 
people, places, and things in the various theaters having to do 
with weapons of mass destruction, what would be most useful to 
the warfighter in the field. And what form that takes, I am not 
quite sure yet.
    But we did learn a lot from doing the Constellation. So the 
plan this year is to use the funds we have to do that and then 
recovering next year and then investing more in those things 
that are useful to SOCOM.
    Mr. Langevin. Okay. Well, we know that the requirement 
hasn't gone away; it is the funding----
    Dr. Hopkins. Correct.
    Mr. Langevin [continuing]. That is the problem. Thank you.
    Mr. Verga, what process is the Department using to ensure 
the transition of necessary resources from STRATCOM to SOCOM 
for the CWMD mission? Has the hiring freeze impacted the 
ability of SOCOM or DTRA to bring people into key positions 
during the transition?
    And, Ms. Durand, how has the transition been for DTRA? What 
have been the challenges and opportunities identified?
    Mr. Verga.
    Mr. Verga. To my knowledge, there have not been any issues 
that have been identified by SOCOM as far as the transition 
goes. I know they had their initial operational capability in 
January to do that, and, as far as I know, they are moving 
right along. The normal budgetary process in terms of the 
transferring of resources is the one that we are using.
    If I can take this opportunity, I may have misspoke when I 
was talking about ISIS' use of chemical weapons. I believe I 
may have said that they had used them against U.S. forces. That 
is not true right now. Right now, it has only been Iraqi 
civilians and Iraqi forces that they have used chemical weapons 
against. And I would like to correct that, if I could.
    Thank you.
    Ms. Durand. So for the transition from STRATCOM to SOCOM, I 
will address how it has impacted DTRA.
    First, I will say our relationship with SOCOM is 
tremendous. We have had a longstanding relationship with them, 
and that has grown even stronger.
    Last December, General Thomas gathered up the entire 
interagency and DOD members and talked about, got their input 
for his overall plan. So he learned from that. We had a Global 
Synchronization Conference last month in bringing in all the 
interagency. He laid out his initial thoughts on the global 
campaign plan that he is developing, and he was gaining 
everyone's input on that. So that has been going very well.
    Specifically to the agency, under STRATCOM, the Director of 
DTRA was dual-hatted as the Director of STRATCOM's Center for 
Countering WMD. SOCOM is not following that organizational 
model, which is just fine. We still have most of the same 
people within the agency, so they are the SOCOM element with 
us.
    And that partnership is continuing, and, if anything, it 
has grown even stronger with General Thomas' and his entire 
staff's active participation in that. So I will tell you I 
think it is going exceptionally well.
    Mr. Langevin. Very good. Thank you.
    I have other questions that I will submit for the record, 
and if you could respond to those in writing, I would 
appreciate it. Thank you. I yield back.
    Ms. Stefanik. Thank you, Mr. Langevin.
    And thank you so much to all of our witnesses, Dr. Hopkins, 
Mr. Verga, and Ms. Durand, for your expertise and testimony 
today.
    And no further questions from the committee members?
    I adjourn this hearing.
    [Whereupon, at 11:42 a.m., the subcommittee was adjourned.]

      
=======================================================================




                            A P P E N D I X

                             March 23, 2017

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 23, 2017

=======================================================================

      
      
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 23, 2017

=======================================================================

      

             RESPONSE TO QUESTION SUBMITTED BY MS. STEFANIK

    Ms. Durand. The Middle East and North Africa (MENA) region 
continues to be volatile, with many destabilizing state and non-state 
actors posing threats across the chemical, biological, radiological, 
and nuclear spectrum. In this region, we are observing the use not only 
of traditional chemical warfare agents but also toxic industrial 
materials (TIMs) such as chlorine as chemical weapons. We also see the 
proliferation of radiological and nuclear materials and technologies 
that must be considered ``high threat'' due to their potential to cause 
WMD-like consequences. Most of these materials are in widespread use 
for legitimate medical, industrial, or commercial power purposes for 
domestic use and regional export. However, we have concerns when this 
material is not properly secured and/or accounted for at production or 
storage sites and in transit to end-use or disposition facilities. The 
DOD Cooperative Threat Reduction (CTR) Program will continue to work 
together with interagency and international partners to ensure that 
security gaps are identified and reduced, to share best practices, and 
to coordinate efforts to prevent material from falling into the hands 
of nefarious regional actors who could use it against the United 
States, U.S. forces abroad, or U.S. allies. Another concern is that 
malevolent non-state actors may try to proliferate WMD-associated 
materials or knowledge from Iraq, Syria or other ungoverned territories 
such as Libya to threaten our allies and partners in the region. To 
this end, we are working with our partners in Jordan, Lebanon and 
Tunisia to help them develop the capabilities to secure their borders 
and be able to interdict WMD-related materials on the move. Resourcing 
these urgent requirements has required us to reprioritize and 
reallocate CTR Program funds and manpower away from other emerging 
threats; however, we believe this is the correct decision. DTRA's 
Chemical, Biological, Radiological and Nuclear (CBRN) Preparedness 
Program (CP2), which supports Operation Inherent Resolve, must also 
balance and prioritize training and equipping partner nations for 
countering weapons of mass destruction (CWMD) operations within a 
variety of constraints. DTRA's work with the Combatant Commands through 
CP2 has successfully increased Turkey's interoperability with U.S. 
Forces to respond to CBRN incidents on and around Turkey's southeastern 
border and bolstered Iraq's ability to respond to chemical threats 
posed by ISIS. It is only through constant vigilance with the Combatant 
Commanders, Embassy Country Teams and partner nations that DTRA assists 
a partner nation to develop their WMD preparedness and incident-
response capability for the next threat, rather than reacting to the 
current WMD threat. Our concern in the long-term is ensuring that the 
partner nation can sustain DTRA's CWMD security cooperation train and 
equip efforts under the new authority provided in Section 333 of the 
FY17 NDAA.   [See page 21.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. WILSON
    Dr. Hopkins. The Secretary of the Army, on behalf of the Secretary 
of Defense, will soon submit the requested 2017 NDAA report to the 
congressional committees on April 10, 2017. The report will address an 
assessment conducted between August and December 2015 to determine the 
optimal distribution of research, development, and production 
activities at the laboratories supporting the Chemical and Biological 
Defense Program (CBDP). The initial corrective action was to 
consolidate the oversight responsibilities that had been spread amongst 
numerous distinct chains of command. The Deputy Secretary of Defense 
designated the Secretary of the Army as the Executive Agent for the 
DOD-wide Biological Select Agents and Toxins (BSAT) Biosafety Program 
on July 23, 2015. The Secretary of the Army delegated authority to the 
Surgeon General of the Army as the Executive Agent Responsible Official 
(EARO) for the DOD BSAT Biosafety Program to consolidate oversight 
across the Department. To optimize the utilization of subject matter 
expertise, the Secretary of the Army approved further delegation of 
authority to the Commanding General, U.S. Army Medical Research and 
Materiel Command (USAMRMC). The Commanding General, USAMRMC, created 
the BSAT Biosafety Program Office (BBPO) to advise on biosafety, 
provide oversight of DOD BSAT laboratory operations, and serve as a 
unified DOD interface with regulatory agencies. To consolidate the 
Department's biosafety and biosecurity oversight responsibilities, the 
Deputy Secretary of Defense also designated the Secretary of the Army 
as the Executive Agent for the DOD BSAT Biosecurity Program on January 
3, 2017. This facilitates the synchronization and unity of effort for 
both biosafety and biosecurity issues. Another corrective action that 
has already taken place is the realignment of oversight of the Dugway 
Proving Ground (DPG) Life Sciences Division (the source of the 
incompletely inactivated anthrax spore shipments) to the U.S. Army 
Edgewood Chemical Biological Center at Aberdeen Proving Ground, 
Maryland. The EARO is responsible for tracking the remaining biosafety 
recommendations and is available to provide more detailed information 
in this area. The CBDP is also conducting an infrastructure assessment 
that will support the analysis of options to reduce the number of labs 
that handle select agents and/or reduce costs.   [See page 16.]
    Mr. Verga. The Secretary of the Army, on behalf of the Secretary of 
Defense, submitted the requested National Defense Authorization Act 
(NDAA) for Fiscal Year 2017 report to the congressional committees on 
April 10, 2017. The report addresses an assessment conducted between 
August and December 2015 to determine the optimal distribution of 
research, development, and production activities at the laboratories 
supporting the Chemical and Biological Defense Program (CBDP). The 
initial corrective action was to consolidate the oversight 
responsibilities that were previously spread among numerous distinct 
chains of command. The Deputy Secretary of Defense designated the 
Secretary of the Army as the Executive Agent for the DOD-wide 
Biological Select Agents and Toxins (BSAT) Biosafety Program on July 
23, 2015. The Secretary of the Army designated the Surgeon General of 
the Army as the Executive Agent Responsible Official (EARO) for the DOD 
BSAT Biosafety Program to consolidate oversight across DOD. To optimize 
the utilization of subject matter expertise, the Secretary of the Army 
approved further delegation of authority to the Commanding General, 
U.S. Army Medical Research and Materiel Command (USAMRMC). The 
Commanding General, USAMRMC, created the BSAT Biosafety Program Office 
(BBPO) to advise on biosafety, provide oversight of DOD BSAT laboratory 
operations, and serve as a unified DOD interface with regulatory 
agencies. To consolidate DOD's biosafety and biosecurity oversight 
responsibilities, the Deputy Secretary of Defense also designated the 
Secretary of the Army as the Executive Agent for the DOD BSAT 
Biosecurity Program on January 3, 2017. This facilitates the 
synchronization and unity of effort for both biosafety and biosecurity 
issues. Another corrective action that has already taken place is the 
realignment of the Life Sciences Division that was the source of the 
incompletely inactivated anthrax spore shipments from Dugway Proving 
Ground (DPG), Utah, to the U.S. Army Edgewood Chemical Biological 
Center at Aberdeen Proving Ground, Maryland. The EARO is responsible 
for tracking the remaining biosafety recommendations and is available 
to provide more detailed information in this area. The CBDP is 
conducting an infrastructure assessment that will support the analysis 
of options to reduce the number of laboratories that handle select 
agents and to reduce costs.   [See page 16.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MS. GABBARD
    Ms. Durand. Weaponization of botulinum neurotoxin (BoNT) requires a 
high degree of sophistication, time, and expense. Work on a vaccine 
against BoNT A/B is nearing completion and full Food and Drug 
Administration (FDA) licensure of a DOD developed vaccine is planned 
for FY23. The DOD is also utilizing its Advanced Manufacturing Facility 
in Achalucha, Florida, to develop antibody drugs against BoNT A/B. The 
first product being developed on this platform is against BoNT A/B.   
[See page 13.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. SCOTT
    Mr. Verga. A decision on whether and how to engage with a country 
that shares some of our interests, but not our values, would be made on 
a case-by-case basis, and would take into consideration the national 
security interests of the United States, the particular circumstances 
of the information and country in question, and applicable laws and 
regulations regarding information sharing with the particular foreign 
government.
    Regarding the Russian Federation, the Department will continue to 
urge Russian adherence to its obligations (such as under the Minsk 
Agreement and arms control treaties) and related global norms that 
uphold international peace and security. However, both as a matter of 
policy and pursuant to the National Defense Authorization Act for 
Fiscal Year 2017, bilateral military-to-military cooperation with the 
Russian Federation Ministry of Defense remains prohibited. Interactions 
with the Russian military are currently limited to those communications 
needed to de-conflict operations and ensure the safety of our forces in 
close proximity, as in Syria, to ensure compliance under international 
agreements, and activities required to support our efforts in 
Afghanistan.   [See page 20.]



      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 23, 2017

=======================================================================

      

                  QUESTIONS SUBMITTED BY MS. STEFANIK

    Ms. Stefanik. Near-peer adversaries such as North Korea and Iran 
are building super-hard and deeply buried facilities to conceal weapons 
development and other activities.
    Could you describe the requirements that are currently articulated 
for detecting, characterizing and neutralizing such sites?
    Do you have any specific or unique requirements from any of the 
combatant commands?
    Would you consider the existing government-owned test sites at Fort 
Hood, White Sands, and other locations sufficient to conduct the kinds 
of research and development being planned to counter these 
developments?
    Are there any additional capability needs to test and demonstrate 
new technologies and methods to locate, assess, and characterize super-
hard and deeply buried facilities that are not captured by any existing 
requirements?
    Ms. Durand. Thank you for that question Congresswoman Stefanik. 
While warfighter and Combatant Commander requirements cannot be 
described in this open forum, I will address your question the best I 
can at an unclassified level. The Test Resource Management Center 
(TRMC) FY 2016-2026 Strategic Plan for DOD T&E Resources describes 
current and anticipated test facility requirements. DTRA research and 
development test and evaluation (T&E) capability needs evolve as 
intelligence assessments and combatant commander plans change. Existing 
requirements documents capture the hardened and deeply buried target 
T&E needs that we are aware of today. More details on the challenges 
associated with hardened and deeply buried targets may be found in the 
classified 2013-2014 Report to Congress on Weapons and Capabilities to 
Defeat Hardened and Deeply Buried Targets dated April 2015 and 
submitted jointly by the Secretary of Defense, the Secretary of Energy, 
and the Director of National Intelligence. This classified report was 
transmitted to the Congressional Armed Services, Intelligence and 
Appropriations Committees in letters dated 4 May 2015, and signed by 
the then Under Secretary for Acquisition, Technology, and Logistics, 
Frank Kendall.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. Among the provisions in the new administration's 
budget framework are reforms to key public health, emergency 
preparedness, and prevention programs. Changes would include the 
creation of a Federal Emergency Respond Fund for rapid response to 
health outbreaks, and a CDC block grant to address state-specific 
challenges. How do the proposals in the budget framework fit into the 
bio defense strategy mandated by the Fiscal Year 2017 NDAA and being 
developed by the interagency? In what ways will the proposed increase 
of our nation's emergency response funds enhance agency collaboration?
    Dr. Hopkins. As we've seen with H1N1, MERS CoV, Ebola, and now 
Zika, swift and efficient response to biological threats is the best 
way to mitigate the impact of the event. As DOD will always be in 
support of civilian response to biological incidents when requested, we 
defer to DHS and HHS on assessing how coordination might be enhanced by 
the creation of Federal Emergency Respond Fund for rapid response to 
health outbreaks. However, the creation of such a fund would likely 
facilitate provision of DOD support during a response to a biological 
incident.
    Mr. Langevin. The 2014 Department of Defense CWMD Strategy 
identifies a foundational activity and task as maintaining and 
expanding technical expertise. What investments and programs is the 
Department undertaking to maintain and expand technical expertise for a 
robust workforce? Do efforts include investment in STEM programs for a 
future workforce?
    Mr. Verga. DOD recognizes that being on the cutting-edge of science 
and technology in any discipline requires an adaptive technical 
workforce that has access to the best equipment and facilities. DOD has 
significant investments in these areas relevant to technology. DOD 
routinely makes targeted investments in areas of emerging technology of 
future relevance to Defense innovation. For example, DOD recently 
committed $45 million in funding to build and strengthen its laboratory 
workforce and equipment to perform Synthetic Biology for Military 
Environments in a manner that builds a multi-service DOD community of 
researchers that collaborate on meeting defense objectives.
    Mr. Langevin. Among the provisions in the new administration's 
budget framework are reforms to key public health, emergency 
preparedness, and prevention programs. Changes would include the 
creation of a Federal Emergency Respond Fund for rapid response to 
health outbreaks, and a CDC block grant to address state-specific 
challenges. How do the proposals in the budget framework fit into the 
bio defense strategy mandated by the Fiscal Year 2017 NDAA and being 
developed by the interagency? In what ways will the proposed increase 
of our nation's emergency response funds enhance agency collaboration?
    Mr. Verga. As we've seen with H1N1, MERS CoV, Ebola, and now Zika, 
a swift and efficient response to biological threats is the best way to 
mitigate the impact of the event. As DOD will always be in support of 
domestic response to biological incidents, we defer to the Department 
of Homeland Security and the Department of Health and Human Services on 
assessing how coordination might be enhanced by the creation of a 
Federal Emergency Respond Fund for rapid response to health outbreaks. 
However, the creation of such a fund would likely facilitate provision 
of DOD Defense Support of Civil Authorities during a response to a 
biological incident.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SHUSTER
    Mr. Shuster. What is the Defense Threat Reduction Agency doing to 
leverage existing information management systems, such as the NGB's 
Civil Support Team (CST) Information Management System (CIMS), to 
ensure such prior investments are efficiently used by follow-on forces 
like the NGB's Chemical, Biological, Radiological, Nuclear, and High 
explosive Enhanced Response Force Package (CERFP) and Homeland Defense 
Response Force (HRF)?
    Dr. Hopkins. The Defense Threat Reduction Agency (DTRA) is 
currently working with the National Guard Bureau (NGB) to field the 
tools (Mobile Field Kit--CBRN and Tactical Assault Kit) that currently 
comprise the Chemical Biological Radiological & Nuclear Information 
Management System (CIMS 2018) to all 57 Civil Support Teams. We 
recently began a new pilot program with NGB to explore how this 
technology would be applicable to the CERFPs & HRFs. To date, this has 
included providing initial training and conducting exercises with the 
Massachusetts CBRN Task Force & Homeland Response Force. These 
exercises have enabled DTRA to work with NGB to determine requirements 
for, and begin developing, additional capability required of CIMS 2018 
to be applicable to these forces. In addition to working with NGB, DTRA 
is currently working with others to leverage existing capabilities to 
ensure CIMS 2018 data can inform and receive data from other decision 
makers as necessary. An example of this work recently occurred during 
the 2017 Presidential Address to the Joint Session of Congress when 
Mobile Field Kit--CBRN (MFK-CBRN) was used to pass information from the 
33rd CST to the Situation Awareness Geospatial Enterprise (SAGE), 
NORTHCOM's situational awareness platform and to the DTRA Joint 
Operations Center.
    Mr. Shuster. Do you have a timeline and investment plan for the 
deployment of NGB's Civil Support Team (CST) Information Management 
System (CIMS) to follow-on forces?
    Dr. Hopkins. Congressman, I respectfully suggest this question 
should be referred to the National Guard Bureau.
    Mr. Shuster. What is the Defense Threat Reduction Agency doing to 
leverage existing information management systems, such as the NGB's 
Civil Support Team (CST) Information Management System (CIMS), to 
ensure such prior investments are efficiently used by follow-on forces 
like the NGB's Chemical, Biological, Radiological, Nuclear, and High 
explosive Enhanced Response Force Package (CERFP) and Homeland Defense 
Response Force (HRF)?
    Mr. Verga. The National Guard Bureau (NGB) continues to work with 
the Defense Threat Reduction Agency on leveraging, to the maximum 
extent possible, available capabilities of the current NGB Civil 
Support Team (CST) Information Management System (CIMS) for the 
National Guard (NG) CIMS. NG CIMS package fielding to weapons of mass 
destruction (WMD)-CSTs, CERFPs, and HRFs is projected to begin in late 
Fiscal Year (FY) 2018.
    Mr. Shuster. Do you have a timeline and investment plan for the 
deployment of NGB's Civil Support Team (CST) Information Management 
System (CIMS) to follow-on forces?
    Mr. Verga. The National Guard Bureau (NGB) is currently conducting 
implementation activities for the National Guard (NG) Chemical, 
Biological, Radiological, and Nuclear (CBRN) Response Enterprise (CRE) 
Information Management System (NG CIMS) Phase I capabilities (initial 
common operating picture and sensor integration capability). Phase I 
pilot testing includes multiple weapons of mass destruction (WMD)-CSTs 
and the Massachusetts Homeland Response Force and runs through the end 
of FY 2017. The NGB is currently conducting planning activities for 
Phase II (information management tools) and Phase III (enterprise and 
interagency systems interoperability) capabilities. NG CIMS fielding to 
WMD-CSTs, CERFPs, and HRFs is projected to begin in late FY 2018. 
Adequate funding is programmed to support NG CIMS through Phase II, 
Phase III, and unit fielding.
    Mr. Shuster. What is the Defense Threat Reduction Agency doing to 
leverage existing information management systems, such as the NGB's 
Civil Support Team (CST) Information Management System (CIMS), to 
ensure such prior investments are efficiently used by follow-on forces 
like the NGB's Chemical, Biological, Radiological, Nuclear, and High 
explosive Enhanced Response Force Package (CERFP) and Homeland Defense 
Response Force (HRF)?
    Ms. Durand. The Defense Threat Reduction Agency (DTRA) is currently 
working with the National Guard Bureau (NGB) to field the tools (Mobile 
Field Kit--CBRN and Tactical Assault Kit) that currently comprise the 
Chemical Biological Radiological & Nuclear Information Management 
System (CIMS 2018) to all 57 Civil Support Teams. We recently began a 
new pilot program with NGB to explore how this technology would be 
applicable to the CERFPs & HRFs. To date, this has included providing 
initial training and conducting exercises with the Massachusetts CBRN 
Task Force & Homeland Response Force. These exercises have enabled DTRA 
to work with NGB to determine requirements for, and begin developing 
additional capability required of, CIMS 2018 to be applicable to these 
forces. In addition to working with NGB, DTRA is currently working with 
others to leverage existing capabilities to ensure CIMS 2018 data can 
inform and receive data from other decision makers as necessary. An 
example of this work recently occurred during the 2017 Presidential 
Address to the Joint Session of Congress when Mobile Field Kit--CBRN 
(MFK-CBRN) was used to pass information from the 33rd CST to the 
Situation Awareness Geospatial Enterprise (SAGE), NORTHCOM's 
situational awareness platform and to the DTRA Joint Operations Center.
    Mr. Shuster. Do you have a timeline and investment plan for the 
deployment of NGB's Civil Support Team (CST) Information Management 
System (CIMS) to follow-on forces?
    Ms. Durand. Congressman, I respectfully suggest this question 
should be referred to the National Guard Bureau.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FRANKS
    Mr. Franks. How can the DOD defend against EMP detonations over 
international waters (beyond 24 miles)?
    How does DOD/DTRA and other DOD units propose to defend the Nation 
from high-altitude EMP attacks initiated over international waters near 
(e.g. within 500 miles) of U.S. coasts?
    Dr. Hopkins. Congressman, this question should be directed to U.S. 
Northern Command for defense against incoming missile or airborne 
threats.
    Mr. Franks. How would DOD/DTRA and other DOD units defend against a 
slow-moving weather balloon containing a nuclear device launched 50 
miles from the United States coast at night? How would it be detected 
and destroyed without triggering an EMP detonation? Would the 
detection/destruction method work if the device was launched 
opportunistically inside the eye of a hurricane?
    Dr. Hopkins. Congressman, this question should be directed to U.S. 
Northern Command for defense against incoming missile or airborne 
threats.
    Mr. Franks. What is DOD policy on the extent to which all DOD 
offensive, defensive, and logistic support equipment and facilities are 
to be mitigated against EMP, and for facilities to have on-site EMP 
mitigated reliable long-term power?
    Dr. Hopkins. Per Department of Defense Instruction 3150.09, it is 
DOD policy that the force will be equipped to survive and operate in 
nuclear environments, including electromagnetic pulse (EMP), as a 
deterrent to adversary use of weapons of mass destruction against the 
United States, its allies, and its interests consistent with the DOD 
Strategy for Countering Weapons of Mass Destruction. The ability of the 
force to operate in these environments must be known and assessed on a 
regular basis, and mission critical systems that must survive and 
operate in nuclear environments will be specified. Mission critical 
facilities with EMP-survivability requirements will be equipped to 
survive and operate in EMP environments, including their necessary 
power supplies.
    Mr. Franks. How can the DOD defend against EMP detonations over 
international waters (beyond 24 miles)?
    How does DOD/DTRA and other DOD units propose to defend the Nation 
from high-altitude EMP attacks initiated over international waters near 
(e.g. within 500 miles) of U.S. coasts?
    Mr. Verga. The United States is currently protected from high-
altitude electromagnetic pulse detonations by the Ground-based 
Midcourse Defense system. Due to the classification levels associated 
with this threat, the Department can make the appropriate personnel 
available to provide a briefing on this specific threat scenario to 
Congressman Franks should it be requested through Legislative Affairs.
    Mr. Franks. How would DOD/DTRA and other DOD units defend against a 
slow-moving weather balloon containing a nuclear device launched 50 
miles from the United States coast at night? How would it be detected 
and destroyed without triggering an EMP detonation? Would the 
detection/destruction method work if the device was launched 
opportunistically inside the eye of a hurricane?
    Mr. Verga. Military forces and posture to defend the United States 
from attack are employed under U.S. Northern Command (USNORTHCOM) and 
U.S. Pacific Command (USPACOM). Due to the classification levels 
associated with this threat, the Department can make the appropriate 
personnel available to provide a briefing on this specific threat 
scenario to Congressman Franks should it be requested through 
Legislative Affairs.
    Mr. Franks. What is DOD policy on the extent to which all DOD 
offensive, defensive, and logistic support equipment and facilities are 
to be mitigated against EMP, and for facilities to have on-site EMP 
mitigated reliable long-term power?
    Mr. Verga. DOD remains fully committed to ensuring the ability of 
defense critical assets to execute essential DOD missions in any 
environment. The Department recognizes the unique challenges posed by 
electromagnetic pulses (EMPs) and the impact that EMPs can have on 
critical systems and capabilities. The Department addresses the 
vulnerability of and mitigation for EMP through several mechanisms, and 
works collaboratively across the Department and with other Federal 
departments and agencies, such as the Department of Energy, so that 
risk can be appropriately managed to ensure the Department's ability to 
execute critical missions in all threat environments.
    Mr. Franks. What are the major outcomes to date of the Defense 
Threat Reduction Agency (DTRA) EMP mitigation project responsive to RFP 
DTRA152-006?
    What are the major outcomes and findings of the DTRA pilot projects 
under contract responsive to the RFP DTRA152-006 to make Defense 
Critical Infrastructure (DCI) mitigated against electromagnetic pulse 
(EMP) threats, including extreme solar storms causing geomagnetic 
disturbances (GMD)?
    Ms. Durand. Work on High Altitude Electromagnetic Pulse (EMP) 
research on the effects on DOD facilities and systems has been 
performed for over 30 years. This research has resulted in the 
publication of HEMP environmental and protection military standards and 
handbooks for the ground facilities and systems, military aircraft, 
military surface ships. We have a long history of both HEMP 
phenomenology, testing and effects on systems as well as critical 
facilities. This has led to research and development of technologies 
that protect our most critical facilities and systems against HEMP. 
Recently, attention has been focused on HEMP and its effects on Defense 
Critical Infrastructure. This emerging research area is looking at the 
effects of HEMP and the loss of power on critical defense installations 
in the performance of their missions. The national power grid 
survivability and performance is the responsibility of the Departments 
of Energy and Homeland Security. DTRA has recognized the need to 
perform R&D on the technologies and methodologies required for critical 
military installations to seamlessly ``island'' off the power grid in 
the event of a national disaster, including HEMP, in order to sustain 
mission operational capabilities. Consequently, DTRA initiated three 
SBIRs to explore the current state of related technologies and 
methodologies. The R&D of the SBIR efforts will be focused on the new 
technologies, renewable power sources and state-of-the-art switching 
capabilities to island off the grid and seamlessly reconnect to the 
grid. Cost efficiency in successful islanding concepts is a priority of 
the research. We expect our vast experience in HEMP hardening of 
complex military systems and facilities can be leveraged in this new 
research area to be more cost-effective. The SBIR Phase II efforts will 
focus on taking the concept from idea to prototype and working with 
more realistic scenarios such as designing an optimization model for a 
specific site based on their load requirements, available resources, 
and incorporation of renewable energy. Phase II efforts may also 
include designing and testing EMP hardened prototype components. As of 
February 2017, one Phase II has been awarded and the others are being 
evaluated. At this time there are no major outcomes or findings to 
report. We expect to have the Final Reports finished by approximately 
Dec 2019.
    Mr. Franks. What was learned to date regarding the DTRA152-006 
projects concerning costs for mitigating DCIs against: a. Direct EMP 
damage? b. For on-site electrical power what are the costs and/or 
energy savings regarding having energy generated on-site? c. Is it 
worthwhile for NDAA legislation to require such EMP mitigation and on-
site power generation at other DCIs?
    Ms. Durand. The DTRA152-0006 proposals are not yet awarded. The 
process of evaluating contractor proposals is on-going. Contract awards 
are expected by Oct 2017. We do not feel that it is necessary that the 
NDAA require such EMP mitigation or on-site power generation at other 
DCIs.
    Mr. Franks. Will DTRA publish an unclassified DTRA152-006 report 
with a classified appendix as appropriate? Is it worthwhile for the 
NDAA 2018 to require this?
    Will DTRA publish an unclassified report for the House Armed 
Services Committee that describes in detail the outcomes and findings 
to date of the DTRA 152-006 pilot projects--and include as a separate 
appendix any classified material? [Such as within two months so the 
Department of Homeland Security (DHS) can use the information while 
preparing its strategy for protecting the Homeland from EMP/GMD (as 
required by 6 U.S.C.) Such unclassified report will be helpful for 
other projects with similar goals to protect other infrastructure.]
    Ms. Durand. DTRA will publish an unclassified report containing the 
detailed outcomes and findings upon conclusion of the Phase II SBIR 
contract efforts in response to RFP DTRA152-006. If applicable, a 
classified separate classified annex will be submitted. We do not feel 
it necessary that the NDAA 2018 require this specifically. The Phase II 
SBIRs are two-year R&D efforts. We expect to have the Final Report 
finished approximately Dec 2019.
    Mr. Franks. What are DTRA plans to support EMP mitigated DOD 
telecommunications between DCIs and central NORTHCOM command? What are 
DTRA plans to support EMP mitigated DOD telecommunications between DCIs 
in event of nationwide EMP, including supporting signal regeneration/
repeater stations across the Nation (every 40 to 50 miles) that boost 
decreasing signal strength using electric power that may likely be 
disabled?
    Ms. Durand. Congressman, this question should be directed to U.S. 
Northern Command for defense against incoming missile or airborne 
threats.
    Mr. Franks. To enable logistic support to DCIs from civilian 
infrastructures, what challenges must be overcome for civilian signal 
regeneration stations every 40 to 50 miles nationwide to have on-site 
EMP mitigated long-term/renewable power to enable these stations to 
pass telecommunications signals to and from DCIs to such civilian 
infrastructure?
    How does DTRA intend to ensure DOD domestic communications between 
DCIs can travel distances if the commercial regeneration/repeater 
stations nationwide are disabled either due to: a. The direct effects 
of an EMP destroying the electronic systems of such regeneration 
stations? b. The loss of electric power from commercial sources?
    Would NDAA 2018 legislation requiring certain rulemaking by the 
Federal Communications Commission regarding civilian regeneration 
stations be helpful regarding logistic support asked about in the 
questions above?
    Since DCIs receive logistic support in terms of food, fuel for 
vehicles and air transport, equipment supplies from across the Nation, 
how does DTRA envision this need being met as far as the suppliers of 
these logistic needs having the electrical power and telecommunications 
to facilitate meeting these needs?
    Ms. Durand. Congressman, the Department of Homeland Security is the 
most appropriate organization to address this question.
    Mr. Franks. What civilian telecommunications support might the NDAA 
2018 require to help ensure civilian infrastructure providing logistic 
support to DCIs have needed telecommunications?
    Ms. Durand. Congressman, the Department of Homeland Security is the 
most appropriate organization to address this question.
    Mr. Franks. Should NDAA 2018 require expanding the entities served 
by the First Responder Network Authority (FirstNet) to include as 
deserving of priority access DCIs, other national security and homeland 
security personnel and personnel providing critical logistic support to 
DCIs, explicitly require FirstNet homeland security, national security, 
and civilian sites providing logistic support to them to be adequately 
mitigated against EMP--and require any FirstNet contracts not doing so 
to be re-negotiated or cancelled and replaced by contracts providing 
such support?
    FirstNet has defied and ignored its Congressional mandate and 
defied its requirement that it adequately ``address special 
considerations for areas or regions with unique homeland security or 
national security needs.address special considerations'' [47 U.S.C. 
1426(b)(2)(D)]
    In order to increase the likelihood that civilian logistic support 
will be available to DTRA DCIs in the event of a nationwide EMP, should 
NDAA 2018 require FirstNet's National Public Safety Broadband Network 
(NPSBN) to meet its mandate, including mitigation against EMP?
    In the NDAA for 2017, PL 114-328, Sec. 1913(a)(2) it established 6 
U.S.C. 121(d)(26)(A)(i) which states, that DHS is to provide 6 months 
after December 23, 2016, ``a recommended strategy to protect and 
prepare the critical infrastructure of the homeland against threats of 
EMP and GMD.''
    Does this recent legislation justify the NDAA requiring FirstNet to 
explicitly ensure the security and resiliency of the NPSBN against EMP?
    Does DTRA see it within its scope to coordinate with FirstNet to 
identify the feasibility, installation impacts, maintenance, training, 
and associated costs to implement the issues above?
    Ms. Durand. Congressman, the Department of Homeland Security is the 
most appropriate organization to address this question.
    Mr. Franks. Would it be helpful that federally owned electric power 
generation, transmission, and distribution assets be required by NDAA 
2018 legislation to make their assets EMP mitigated so that civilian 
supporting infrastructure in such areas can better support DCIs?
    Ms. Durand. Congressman, the Department of Homeland Security is the 
most appropriate organization to address this question.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
